               Office of Inspector General




September 29, 2006

LYNN MALCOLM
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT: Postal Service Officers Travel Expense Guidelines
         (Product Number FT-WP-06-001)

This white paper provides the results of our review of the current U.S. Postal Service
officers travel expense guidelines (Project Number 06BD020FT001). We performed
this review in response to a request from Postal Service management to evaluate
whether travel guidelines for its officers were reasonable when compared to other
entities’ travel policies.1 The U.S. Postal Service Office of Inspector General (OIG)
Financial Statements directorate performed the review with Postal Service Finance
personnel.

During this review, we determined whether the officers travel guidelines corresponded
to travel guidelines prescribed by other federal and local government entities, private
corporations, not-for-profit organizations, and trade journals. (See Appendix A for the
entities and sources against which we benchmarked.) We met regularly with Finance
personnel to provide feedback on our benchmarking results and discuss potential
changes to the current guidelines. Further, with Finance, we coordinated with the
Secretary of the Board of Governors to ensure any differences in Board of Governors
travel guidelines (currently under modification) and changes to the officers travel
guidelines are reasonable and appropriate.

In general, the travel guidelines the Postal Service instituted for its officers were not
always consistent with travel guidelines prescribed by the entities and sources against
which we benchmarked. Based on our benchmarking, we determined the guidelines did
not always incorporate key best practices such as:

•      Requiring all employees to use their government-issued travel card for customary2
       travel expenses.
•      Excluding reimbursement for alcoholic beverages or providing specific exceptions.
•      Providing generally accepted practices for tipping.
•      Establishing limits related to meals, lodging, and incidental charges in conduct of
       travel and/or representation.


1
    The travel policies obtained from outside sources were travel policies used for all employees, including officers.
2
    Common carrier transportation, hotel, and car rental.
Postal Service Officers Travel Expense Guidelines                            FT-WP-06-001




•   Disallowing employees to accept lump sum points for scheduling an official
    conference or group travel.
•   Using a designated agent when making travel arrangements.

The results of our detailed analysis are presented in Appendix B. Based on our
analysis, we offer the following suggestions for the Postal Service to consider when
updating the officers travel guidelines:

•   Require government-issued travel card for payment of all customary travel expenses
    and representation expenses.
•   Prohibit reimbursement for alcoholic beverages.
•   Establish specific guidelines for tipping.
•   Establish a per diem or maximum allowable amount for meals and lodging when
    traveling and meals are part of representation expenses.
•   Incorporate the 50-mile rule for overnight stays.
•   Establish specific criteria for allowable laundry and dry cleaning, health club, and
    business center expenses.
•   Prohibit acceptance of promotional benefits for planning and/or scheduling of
    meetings and conferences.
•   Require coach class for air travel, with specific exceptions (for things such as length
    of flight or medical needs).
•   Use a designated agent when making travel arrangements.
•   Refer employees to Management Instruction FM-640-2001-4, Payment for Meals
    and Refreshments (which further defines business meals) for a clear and consistent
    framework for reimbursing such representation expenses.
•   Require detailed receipts listing meals, tips, and other costs supporting
    representation expenses.
•   Add a reference to Handbook F-15, Travel and Relocation; Management Instruction
    FM-530-2001-1, Use of Postal Vehicles for Home-to-Work Transportation; and
    Management Instruction FM-530-2001-3, Use of Chauffeurs at Headquarters and
    Designated Drivers in the Field, for those items the officers travel expense
    guidelines do not specifically include.

Throughout our review, we provided Postal Service Finance our comments and
suggestions based on our benchmarking results. Management reviewed a discussion
draft of this white paper and provided feedback, which we have taken into account;
therefore, no response is necessary.




                                                    2
Postal Service Officers Travel Expense Guidelines                        FT-WP-06-001



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, Director,
Financial Statements, or me at (703) 248-2100.

    E-Signed by John Cihota
 ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc:    Mary Anne Gibbons
       Wendy A. Hocking
       Anthony J. Vegliante
       H. Glen Walker
       Vincent H. DeVito, Jr.
       Steven R. Phelps




                                                    3
Postal Service Officers Travel Expense Guidelines                                            FT-WP-06-001



                            Appendix A. Benchmarking Sources


Federal Agencies/Sources3

•     Federal Deposit Insurance Corporation (FDIC)
•     Federal Reserve Board (FRB)
•     Tennessee Valley Authority (TVA)
•     Federal Acquisition Regulation (FAR)
•     Federal Travel Regulation (FTR)


Private Corporations4

      •   Company A
      •   Company B


Other Sources

      •   American Association of Law Libraries
      •   City of Dover, Delaware
      •   Indiana University
      •   Business Travel News Magazine (www.btnonline.com)


Postal Service

•     Handbook F-15, Travel and Relocation (F-15)
•     Management Instruction FM-640-2001-4, Payment for Meals and Refreshments
•     Management Instruction FM-640-1999-3, Travel Expense Charges for Meetings
•     Management Instruction FM-530-2001-1, Use of Postal Vehicles for Home-to-Work
      Transportation
•     Management Instruction FM-530-2001-3, Use of Chauffeurs at Headquarters and
      Designated Drivers in the Field
•     Officers travel guidelines




3
    The FDIC, FRB and TVA are federal agencies. The FAR and FTR are federal guidance handbooks.
4
    Fortune 500 companies’ names were withheld in order to provide anonymity.



                                                       4
     Postal Service Officers Travel Expense Guidelines                                                                                                     FT-WP-06-001




                                                                 APPENDIX B. OIG ANALYSIS

                                          Federal                       Private
Travel Expense Items                  Agencies/Sources                Corporations                 Other Sources                Postal Service              OIG Suggestions
    Travel Card                   •    Two agencies require       •    One company             •    No policies found.     •    All chargeable             •   Require
                                       use of a travel card            states employees                                         expense items should           government
                                       for expenses.                   should use a                                             be on the officer’s            travel card for
                                  •    One agency does                 travel card for                                          government-issued              payment of all
                                       not, but requires use           travel expenses.                                         travel card;                   customary travel
                                       of the government          •    One company                                              otherwise, employee            expenses, such
                                       rate for travel                 states employees                                         should pay for them            as common
                                       expenses.                       must use travel                                          with cash.                     carrier
                                  •    One source requires             card to be                                                                              transportation
                                       use of government               reimbursed.                                                                             and hotel and
                                       card; one source                                                                                                        rental car.
                                       does not address
                                       use.
Alcoholic Beverages               •    Two agencies               •    One company             •    Two disallow with      •    Will pay for alcohol       •   Prohibit
                                       disallow.                       disallows.                   one having                  served in conjunction          reimbursement
                                  •    One agency has no          •    One company has              exceptions.                 with officer-approved          for alcoholic
                                       policy.                         no policy.              •    One has no                  functions.                     beverages.
                                  •    Both sources                                                 policy.
                                       disallow.
         Tipping                  •    Two agencies have          •    One company             •    Two have no            •    Tips to waiters,           •   Establish specific
                                       no policy.                      states employees             policy.                     bellhops, and porters          guidelines for
                                  •    One agency has                  should use              •    One has generally           are included in per            officers’ travel.
                                       limited policy                  discretion.                  accepted                    diem allowance.
                                       guidelines.                •    One company                  practices.5            •    For limousine, airport
                                  •    One source has                  states the                                               shuttle or taxi drivers,
                                       limited policy                  standard is                                              a maximum of
                                       guidelines, while one           15 percent.                                              15 percent of the fare
                                       source does not                                                                          and $1.00 for tips for
                                       address tipping.                                                                         courtesy service is
                                                                                                                                allowed.


     5
         The generally accepted practice is 15 percent of meal costs, 15 percent of taxi fare, $1 per bag, and $1 for valet parking.


                                                                                          5
      Postal Service Officers Travel Expense Guidelines                                                                                 FT-WP-06-001




                                     Federal                     Private
Travel Expense Items             Agencies/Sources              Corporations           Other Sources             Postal Service           OIG Suggestions
   Meals for Travel          •    One agency is based      •   One company is     •    No policy found.     •   One policy              •   Establish a per
                                  on actual expenses.          based on actual                                  reimburses actual           diem or
                             •    One agency is based          expense.                                         expenses incurred.          maximum
                                  on per diem.             •   One company has                                  Expenses unusual in         allowable amount
                             •    One agency is based          maximum                                          variety, cost, or           rather than actual
                                  on per diem but              allowable amount                                 nature require              expenses.
                                  allows actuals in            based on city.                                   advance written
                                  certain                                                                       authorization.
                                  circumstances.                                                            •   Allowed to claim per
                             •    One source is based                                                           diem or actual
                                  on per diem; one                                                              expenses, depending
                                  source does not                                                               on destination and
                                  address.                                                                      duration of trip.
                                                                                                            •   Local travel based on
                                                                                                                actual expenses.
       Lodging               •    One agency and one       •   One company has    •    One required the     •   Should use              •   Establish a
                                  source require               no policy.              use of hotels with       contractual                 maximum
                                  employees to obtain      •   The policy was          negotiated rates.        arrangements with           allowable
                                  General Services             unknown for one    •    Two had no               specific travel             amount.
                                  Administration rates.        company.                policy.                  agencies to obtain
                             •    Two agencies require                                                          lodging for official
                                  employees to request                                                          travel.
                                  government rate.
                             •    One source does not
                                  address lodging.
Distance for Overnight       •    One agency states        •   One company had    •    No policy found.     •   50 miles from           •   Incorporate the
        Stay                      50 miles from official       no policy.                                       permanent duty              50-mile rule into
                                  duty station (ODS).      •   The policy was                                   station.                    the officers travel
                             •    One agency states            unknown for one                                                              guidelines.
                                  more than 60 miles           company.
                                  from ODS.
                             •    One agency and
                                  two sources had
                                  no policy.



                                                                              6
     Postal Service Officers Travel Expense Guidelines                                                                                   FT-WP-06-001




                                    Federal                    Private
Travel Expense Items            Agencies/Sources             Corporations             Other Sources             Postal Service            OIG Suggestions
 Laundry Expenses           •    One agency states       •   One company had      •    No policies found.   •   Actual expenses          •   Establish specific
                                 employees eligible          no policy.                                         while in an authorized       criteria for
                                 when trip lasts at      •   The policy was                                     travel status include        allowable laundry
                                 least 7 consecutive         unknown at one                                     laundry and dry              and dry cleaning
                                 days.                       company.                                           cleaning.                    expenses.
                            •    Two agencies and                                                           •   Per diem includes
                                 one source had no                                                              laundry and dry
                                 policy.                                                                        cleaning.
                            •    One source states
                                 employees are
                                 eligible when trip
                                 lasts at least 4
                                 consecutive days.
  Health Club Fees          •    No policies found.      •   One company will     •    No policies found.   •   Actual expenses          •   Establish specific
                                                             reimburse fees                                     while in an authorized       criteria for
                                                             charged by hotels                                  travel status include        allowable health
                                                             for use of fitness                                 health club fees.            club expenses.
                                                             center by hotel
                                                             guests.
                                                         •   One company had
                                                             no policy.
  Business Center           •    No policies found.      •   No policies found.   •    No policies found.   •   Actual expenses          •   Establish specific
     Charges                                                                                                    while in an authorized       criteria for
                                                                                                                travel status include        allowable
                                                                                                                hotel business center        business center
                                                                                                                expenses.                    expenses.
Promotional Benefits        •    Two agencies            •   One company has      •    No policies found.   •   No policies found.       •   Prohibit the
         for                     disallow acceptance         no written policy.                                                              acceptance of
Meetings/Conferences             of points.              •   One company                                                                     promotional
                            •    One agency and one          does not allow                                                                  benefits
                                 source had no policy.       planner to accept                                                               (including points)
                                                                                                                                             for personal use.
                            •    One source disallows        points.
                                 acceptance of points.



                                                                             7
     Postal Service Officers Travel Expense Guidelines                                                                                    FT-WP-06-001




                                    Federal                      Private
Travel Expense Items            Agencies/Sources               Corporations               Other Sources           Postal Service           OIG Suggestions
    Airline Travel          •    One agency requires       •   Both companies         •    One requires       •   Required to purchase    •   Require coach
                                 coach class; can use          require coach               coach class.           a coach class ticket,       class as the form
                                 first-class in limited        class.                 •    Two had no             but reimbursement is        of air travel with
                                 cases.                    •   One company                 policy.                made upon purchase          specific
                            •    One agency requires           states the use of                                  of upgrade coupons.         exceptions (for
                                 coach class for flights       business class will                                                            things such as
                                 10 hours or less;             be limited.                                                                    length of flight or
                                 business class for        •   One company                                                                    medical needs).
                                 flights 10 hours or           states business
                                 more. With advance            class is the
                                 approval for special          exception.
                                 circumstances (health
                                 or disability reasons),
                                 first-class may be
                                 authorized.
                            •    One had no policy.
                            •    One agency states
                                 employees may use
                                 upgrade coupons at
                                 their own expense.
                            •    One source requires
                                 coach class with
                                 exceptions and one
                                 source does not
                                 address.
 Designated Travel          •    Two agencies and          •   One company            •    One requires use   •   Contracted with         •   Use contract
      Agency                     one source require            does not require            of designated          specific agencies for       travel agent when
                                 use of company                use of travel               travel agency.         reservations and            making travel
                                 travel agency.                agency.                •    Two had no             ticketing.                  arrangements.
                            •    One agency does not       •   The policy was              policy.            •   Must use contracted
                                 require use of travel         unknown at one                                     travel agency for
                                 agency.                       company.                                           airline reservations.
                            •    One source does not
                                 address.



                                                                                  8
     Postal Service Officers Travel Expense Guidelines                                                                                     FT-WP-06-001




                                    Federal                    Private
Travel Expense Items            Agencies/Sources             Corporations            Other Sources                Postal Service            OIG Suggestions
   Representation           •    Two agencies and        •   One company           • One notes they will      •   Business meals are       •   Incorporate
     Expenses                    two sources had no          states expenses         reimburse expenses           defined as meals (on         Management
                                 policy.                     reimbursed only if      for meetings of an           and off-site) where          Instruction
                            •    One agency                  related to              administrative nature        executives, as part of       FM-640-2001-4
                                 stipulates business         company                 that directly concern        their official duties,       into the Postal
                                 purposes must be            business.               the entity.                  host meetings with           Service’s current
                                 served.                 •   The policy was        • One states when              customers who are            officers travel
                            •    No policies found           unknown for both        circumstances merit,         not employees.               guidelines.
                                 regarding                   expenses and            employees may            •   Business meals are       •   Agree with
                                 representation              receipts at one         claim expenses for           not authorized for           existing policy not
                                 expense receipts.           company.                professional                 meetings with                to use IMPAC for
                                                         •   One company has         hospitality.                 contractors and              representation
                                                             a spending            • One allows claims            consultants.                 expenses.
                                                             budget.                 for formal business      •   Should not use the       •   Establish
                                                         •   The employee            meetings that are at         International                allowable
                                                             must be able to         least half a day long.       Merchant Purchase            amounts for
                                                             prove the             • One states the               Authorization Card           meals.
                                                             business purpose        maximum per                  (IMPAC) Visa to pay      •   Require itemized
                                                             and provide             person rate for              for business meals.          receipts listing
                                                             documentation for       hospitality is $15 for   •   Claims for                   meals, tips, and
                                                             the amount of           breakfast; $20 for           representation               other costs
                                                             each expense,           lunch; $35 for               expenses must be             supporting
                                                             date and place of       dinner; and $10 for          supported by the             representation
                                                             entertainment,          light refreshment.           name, company, title         expenses.
                                                             and business            This includes tax            and professional         •   Require detailed
                                                             relationship of the     and service.                 affiliation of the           receipts listing
                                                             person                • One states original,         persons involved; the        meals, tips, and
                                                             entertained at one      detailed receipts            date and place where         other costs.
                                                             company.                must be retained to          expenses were
                                                                                     be reimbursed.               incurred; a brief
                                                                                   • One states all meals         description of the
                                                                                     require itemized             nature of the
                                                                                     receipts.                    expense; and the
                                                                                   • One requires                 reason for incurring
                                                                                     receipts for                 the representation
                                                                                     expenses over $50.           expense.


                                                                              9
     Postal Service Officers Travel Expense Guidelines                                                                                       FT-WP-06-001




                                    Federal                    Private
Travel Expense Items            Agencies/Sources             Corporations                Other Sources              Postal Service            OIG Suggestions
   Spouse/Guest             •    One agency does not     •   One company             •    No policies found.    •   The attendance of        •   Agree with
     Expenses                    reimburse.                  requires advanced                                      spouses or guests of         current Postal
                            •    Two agencies and            approval.                                              officers must be             Service officers
                                 two sources had no      •   The policy was                                         authorized in writing        travel guidelines.
                                 policy.                     unknown at one                                         prior to the event.
                                                             company.                                               The written
                                                                                                                    authorization must be
                                                                                                                    forwarded with the
                                                                                                                    claim.
  Travel Receipts           •    Two agencies and        •   Both companies          •    One requires          •   One requires receipts    •   Agree with
                                 one source require          require receipts             receipts for $10 or       for items $75 or             current Postal
                                 receipts for $75 or         for $75 or more.             more.                     more.                        Service officers
                                 more.                                               •    Two had no            •   One requires receipts        travel guidelines.
                            •    One agency requires                                      policy.                   for costs exceeding
                                 receipts for $25 or                                                                $50 unless paid by
                                 more.                                                                              travel card.
                            •    One source does not
                                 address.
  Telephone Calls           •    One agency and one      •   One company had         •    Two had no            •   Phone call of            •   Agree with
                                 source require the          no policy.                   policy.                   reasonable length to         current Postal
                                 use of the agency’s     •   The policy was          •    One allows when           family or residence is       Service officers
                                 calling card.               unknown at one               necessary for             authorized while on          travel guidelines
                            •    One agency requires         company.                     proper contact.           travel status.               allowing a phone
                                 use of the agency’s                                                            •   Use of the MCI               call of reasonable
                                 toll-free number.                                                                  calling card is              length to family or
                            •    One agency will                                                                    required except in an        residence.
                                 reimburse calls in                                                                 emergency.
                                 conjunction with
                                 official business.
                            •    One source did not
                                 address.




                                                                                10
     Postal Service Officers Travel Expense Guidelines                                                                                  FT-WP-06-001




                                    Federal                    Private
Travel Expense Items            Agencies/Sources             Corporations            Other Sources             Postal Service            OIG Suggestions
   Official Vehicles        •    Two agencies had no     •   One company had     •    No policies found.   •   Use of official          •   Incorporate
                                 policy.                     no policy.                                        vehicles for home-to-        Management
                            •    One agency stated       •   The policy was                                    work transportation is       Instructions
                                 the employee is             unknown at one                                    not permitted, except        FM-530-2001-1
                                 responsible to              company.                                          under very limited           and FM-530-
                                 provide own                                                                   circumstances.               2001-3 into the
                                 transportation to and                                                     •   Officers may use a           Postal Service
                                 from work.                                                                    chauffeur when on            officers travel
                            •    One source did not                                                            official business.           guidelines.
                                 address.                                                                  •   Spouses, managers,
                            •    One source requires                                                           and other employees
                                 travel authorization.                                                         may use chauffeurs
                                                                                                               only when with
                                                                                                               officers on official
                                                                                                               business.
                                                                                                           •   Outside of normal
                                                                                                               working hours,
                                                                                                               minimal chauffeur
                                                                                                               use is allowed; public
                                                                                                               transportation should
                                                                                                               be used when less
                                                                                                               expensive.




                                                                            11
